REVIEW OF THE RECOVERY ACT’S IMPACT 

           ON SBA LENDING 

           Report Number:ROM  10-02 

         Date Issued:November 25,2009 





               Prepared by the 

       U.S.
          Office of Inspector General

           Small Business Administration

   To:
         U.S.Small Business Administration 

         Office Inspector General 

         Eric Zarnikow
                                               Memorandum
                                                       25,
                                                           
         Date:
 November 2009 

         Associate Administrator for Capital Access 

                S.
  From: 
Debra Ritt /S/ Original Signed

         Assistant Inspector General for Auditing 

         Report Number     ROM-10-02 

Subject: Review of the Recovery Act’s Impact on SBA Lending



                                                                             U.S.
         This report presents our first review of the credit markets served by the Small 

         Business Administration’s (SBA)lending programs since the passage of the

         American Recovery and Reinvestment Act of 2009(RecoveryAct). Under the

         Recovery Act,SBA received $730 million to aid small business owners and 

         stimulate small business lending. The Office of Management and Budget’s

         (OMB)guidance for implementing the Act stresses accountability and requires

         agencies to ensure that funds are strictly monitored. In response,the Office of 

         Inspector General (OIG)is performing periodic reviews of SBA program data to 

         identify program trends and determine how well the Recovery Act is meeting its

         goals. 

         While SBA publishes monthly performance reports,they provide a limited view of 

         lending activity and the Recovery Act’s impact. Our objectives in this review 

         were to:(1)provide transparency on SBA loan activity and lender participation

         under the Recovery Act;and (2)determine the impact of program changes on the 

         levels and characteristics of SBA lending. This report presents our initial

         observations regarding trends and potential risk areas in SBA lending programs.

         While we identified some possible causes,our comments are not presented as

         conclusions. We will monitor these trends as we continue our oversight and

         review in this area. 

         The primary source of information for our review was loan data extracted from

         SBA’s Loan Accounting System. To measure the impact of the Recovery Act,we 

         established a baseline of 7(a)and 504 loan activity between January 1,2007 and 

         February 16,2009. We compared 7(a)and 504loan activity funded by the

         Recovery Act between February 17,2009 and July 31,2009 to this baseline to 

         determine the responsiveness of the credit markets to the Recovery Act programs. 

                                                i

                                                                                 2


               I.
A more detailed discussion of our review scope and methodology is provided in 

Appendix The results below exclude loans not funded by the Recovery
                          4.1 0.4                                       Act. 

These loans accounted for percent of 7(a)loan approvals,the majority of 

which were SBAExpress loans,and percent of loan 504 approvals. 

We conducted our review from July 2009 to September 2009 in accordance with

Government Auditing Standards prescribed by the Comptroller General of the 

United States. 

On November 20,2009,the Associate Administrator for Capital Access provided

formal comments to the OIG’s draft report,generally agreeing with the report’s

findings. His comments also provided some clarification to report statements 

about SBAExpress lending activity and its impact on Agency staffing

requirements and program risk. 

BACKGROUND 

On February 172009,the Recovery Act was signed into law in response to the

economic crisis. Many small businesses had been hit especially hard as banks 

started tightening credit in early 2007. Since September 2007,SBA loan 

approvals have been trending downward,reaching their lowest levels in February

2009.  As economic conditions worsened,activity in SBA’s secondary market also

declined.  Beginning in October 2008,the volume of SBA loans sold into the

secondary market plunged,and in January 2009 reached its lowest level in over 

5   years. 

The Recovery Act provided SBA with $730 million to increase the availability of 

credit to small businesses. In response,the Agency modified existing programs

and implemented new programs aimed at stimulating loan activity. On 

March 16,2009,SBA launched two key initiatives. First,certain fees in the 7(a)

and 504 loan programs were temporarily eliminated to lower the cost of the 

program for borrowers and lenders and encourage participation in SBA’s lending

programs. The Recovery Act also increased SBA’s guaranty on most 7(a)loans 

(withthe exception of SBAExpress loans)to 90 percent in order to reduce lender 

risk and encourage increased lending. The Agency was appropriated $375 million 

to implement these programs. 

In addition,SBA launched the America’s Recovery Capital (ARC)loan program

to help viable small businesses make existing debt payments,implemented

changes to its 504 loan program to allow debt refinancing,raised limits in the 

Small Business Investment Company and Surety Bond programs,and used 

increased funding to expand the Microloan program. As of the time of this

                                                                                 3

review,the Agency had not implemented the secondary market programs of the

Recovery   Act. 

RESULTS IN BRIEF 

                                                                Act.
Both 7(a)and 504 lending increased sharply since the Recovery From March 

to July,7(a)and 504 loan approvals jumped 39 percent and 73percent,

respectively. While the improvement is significant,both 7(a)and 504 loan 

approvals remained below 2008 and 2007 levels. 

The SBAExpress program had not responded as quickly as the rest of 7(a)lending.

July approvals were just 13percent higher than in March.    Our review showed that 

SBAExpress loan approvals have trended downward since 2007. The historical 

decline in program volume and weak response under the Recovery Act may

suggest broad concern about the program’s risk from lenders. 

Small and medium lenders in the 7(a)program recovered more quickly, with loan 

activity returning to
lending.             year-ago   levels,and have taken on a larger share of SBA

          As a result,loan activity has become more widely dispersed since the

Recovery Act with the top 20 lenders accounting for 38 percent of all 7(a)loans 

(excluding SBAExpress),compared to 53percent in 2007. During the audit

period, 256 new and returning lenders made   loans.  These lenders,which were 

either new to SBA lending or had not made a loan since January 2007,have been 

mostly smaller lenders making one or two   loans.  While they account for just

4 percent of total dollar volume under the Recovery Act,the addition of new 

lenders is a positive sign for the recovery and underscores the role being played by

smaller lenders. 

Our review found that an increased trend in SBA-approved   loans in the 7(a)and 

504 loan programs may be impacting Agency staffing requirements and program

risk. In the 7(a)program,the number of    SBA-approved  loans more than doubled

from March to July in the Recovery period. Without adequate training and

supervision,the increased demands on loan center staff could impact the quality of 

Agency loan reviews. 

The shift towards   SBA-approved loans was also substantial in the 504 program,

with the share of Agency-approved loans jumping to 94 percent of total loan

                                   ago.
approvals,from 80percent 2 years Efficiency gains in Agency processing

times,combined with weaker economic conditions,may have reduced the 

incentive for Certified Development Companies (CDCs)to use their delegated

authority to approve loans. If CDCs continue to send more loans to the Agency

for approval,the Agency would lose the CDCs’contribution to any losses should 

these loans default.

                                                                                                               4

RESULTS 

7(a)and 504 Lending Increased Significantly Since Implementation of the

Recovery Act Provisions 

7(a)Loan Program           

Loan activity in the 7(a)program increased significantly since the Recovery
Through July,SBA-approved 19,138 Recovery Act loans worth $4.2 billion,

                                                                                                      Act. 

slightly more than its fiscal year Recovery Act target. Loan approvals increased 

                                                 31.
39 percent between March 1 and July Despite the sharp rise in the recovery

period,loan approvals remained below historical levels (Figure Average
              1).
monthly loan volume during this period was 3,600,or less than half of what it was 

over a similar period in 2007. 

                                          1.
                          Figure 7(a)Lending Activity 

                                          7(a)Loan Approvals         

 10,000 

  9,000 

  8,000 

  7,000 

  6,000 

  5,000 

  4,000 

  3,000 

  2,000 

  1,000 

     0

     n- M -0 M -0
    Ja
      07     7
            ar
                  7
                 ay
                       l-07
                      Ju
                                p- v- n- M -0 M -0
                                07

                               Se
                                      07

                                     No   Ja
                                            08    8
                                                 ar
                                                        8
                                                       ay
                                                             l-0
                                                            Ju
                                                                 8
                                                                      p- v- n- M -0 M 
-0
                                                                     Se
                                                                         08

                                                                              No
                                                                                08   09


                                                                                   Ja

                                                                                         ar
                                                                                           9    9
                                                                                               ay

                                                                                                      l-0 

                                                                                                     Ju
                                                                                                          9





Source:SBA Loan Data 

Within the 7(a)program,SBAExpress had not shown significant improvement,

                                                                          2).
masking a stronger recovery in the rest of 7(a)(Figure Excluding SBAExpress

loans,July loan approvals were up 62percent since March,approaching the levels 

                                                                                                                                                5

a year ago in 2008. Still, average monthly loan approvals from March through

July were 20 percent below 2008 levels and 26 percent below 2007. 

                                     2.
                Figure 7(a)Activity Excluding SBAExpress 

                                     SBA 7(a)Loan Approvals Excluding Express                                   

     3500 



     3000 



     2500 



     2000 



     1500 



     1000 


      Ja
        n- M -0 M -0
           07    7
                ar   ay
                       7
                            l-0
                           Ju
                                7
                                     p- -0 n- -0
                                    Se
                                         07

                                              N
                                                   7
                                                  ov   Ja
                                                            08

                                                                 M
                                                                      8
                                                                     ar
                                                                          M
                                                                               -0 l-0
                                                                               8
                                                                              ay   Ju
                                                                                        8
                                                                                              p- -0 n- -0
                                                                                             Se
                                                                                                  08

                                                                                                       N
                                                                                                            8
                                                                                                           ov   Ja

                                                                                                                    09


                                                                                                                      M
                                                                                                                           9
                                                                                                                          ar
                                                                                                                                 -0 l-0 

                                                                                                                                ay

                                                                                                                               M 

                                                                                                                                     9     9


                                                                                                                                         Ju





Source:SBA Loan Data 

While loan approvals increased sharply under the Recovery Act,only about half 

the loans had been disbursed. Through June 30, billion of the billion1 
in 

7(a)loans approved under the Recovery Act had been disbursed to borrowers.
                                                                                        $1.7                               $3.3
Because there is a lag in disbursement time,loan approvals are not the best 

measure of economic impact. Greater transparency would be achieved by

including disbursement data,in addition to approval data,in the Agency’s monthly

performance reports. 

504 Loan Program 

Approvals of 504 loans in July were 73percent above March levels,and just

2 percent below the same period in 2008 (Figure Average monthly loan 

approvals from March to July were 26 percent below 2008 levels and 42 percent

                                                                                            3).
below 2007levels. 



1
    Disbursement data for 7(a)loans approved in July was not available at the time of our review. 

                                                                                                                            6


                                              3.
                               Figure 504 Lending Activity 

                                              504Loan Approvals

  1200 


  1000 


   800 


   600 


   400 


   200 


    0

    n- M -0 M -0
   Ja
     0
      7     7
           ar
                 7
                ay
                      l-0
                     Ju
                          7
                               p-
                               0

                              Se
                                7

                                    N
                                        -07
                                        ov     n- M -0 M -0
                                              Ja
                                                   0
                                                    8
                                                        ar
                                                          8
                                                              ay
                                                                 8
                                                                      l-0
                                                                     Ju
                                                                          8
                                                                               p-
                                                                               0

                                                                              Se
                                                                                8

                                                                                    N
                                                                                        -08

                                                                                        ov
    n- M -0 M 
-0
                                                                                              Ja
                                                                                                    9
                                                                                                   0

                                                                                                         9
                                                                                                        ar
                                                                                                              9
                                                                                                             ay

                                                                                                                    l-0 

                                                                                                                     9


                                                                                                                   Ju





Source:SBA Loan Data 

In the 504loan program,loans are generally used to fund construction projects.

Unlike the 7(a)program where funds are disbursed by lenders upfront,SBA does 

not issue its debenture to fund a 504 loan until the project has been completed. To 

cover project costs during construction,the 504 program allows borrowers to 

secure interim financing from a third                   party.
                                              Thus,the economic impact of a 

504 loan is realized when the interim financing is disbursed. Therefore,loan 

approvals in this program are a more appropriate indicator of economic impact. 

SBAExpress Had Not Improved as Significantly as the Rest of the 7(a)

Program under the Recovery Act 

Although SBAExpress activity had increased since bottoming out earlier this year,

July approvals were just 13percent higher than in March,and much lower than in

                              4).
previous years (Figure Average monthly approvals from March through July

were about half of 2008 levels and less than a third of 2007 approvals. The slower

turnaround in loan approvals may be attributable to less stimulus from the

Recovery Act or issues that preceded the Recovery                             Act. 

                                                                                                                                                 7

                                               4.
                                Figure SBAExpress Lending Activity2 

                                              SBA Express Lending Activity 

    7000 

    6000 


    5000 

    4000 

    3000 

    2000 


    1000 

       0


     Ja
       n-
        07

             M
                 - -
                  07
                 ar
                      M
                           07
                          ay
                                 l-0
                                Ju
                                     7
                                          p-
                                          07

                                         Se    N
                                                    -0
                                                    7
                                                   ov     n-
                                                         Ja
                                                           08

                                                                M
                                                                    - -
                                                                     08
                                                                    ar
                                                                         M
                                                                              08
                                                                             ay
                                                                                    l-0
                                                                                   Ju
                                                                                        8
                                                                                             p-
                                                                                            Se
                                                                                              08

                                                                                                   N
                                                                                                        -0
                                                                                                        8
                                                                                                       ov     n-
                                                                                                              09

                                                                                                             Ja
   M
                                                                                                                       - -
                                                                                                                        09
                                                                                                                       ar    ay
                                                                                                                            M 

                                                                                                                                  09

                                                                                                                                    Ju

                                                                                                                                        l-0 

                                                                                                                                         9





Source:SBA Loan Data 

Unlike the other 7(a)lending programs,the Recovery Act did not raise the 

guaranty level of SBAExpress                            loans.
                                     While a lender cansecure up to a
guaranty on other types of 7(a)loans,SBAExpress loans remain at a
                                                                                                                               90-percent

                                                                                                                            50-percent

guarantylevel.
borrowers. 
    However,the Act did reduce SBAExpress guaranty fees for

The program’s decline since 2007 resulted in a significant shift in the 7(a)lending

portfolio. In 2007,SBAExpress represented 66percent of total 7(a)loan

approvals.    This declined to 43 percent under the Recovery In its fiscal year

2008 financial report, SBA reported that the decline in SBAExpress lending was 

                                                                                                            Act.
predominantly due to a number of large lenders reducing or discontinuing their 

participation in the program due to their losses. The program is among SBA’s 

riskiest3 for lenders,with a loan purchase rate that exceeded the rate of other 7(a)

loans over the last              year. 

The historical decline in program volume and weak response under the Recovery

Act may suggest continued lender concerns about their risk of loss under the 

program. The substantially lower guaranty level,together with the program’s

higher loss rates, may explain why SBAExpress has not responded as significantly

under the Recovery               Act. 

2
  SBAExpress loan activity between February 17 and July 31, 2009 only includes loans funded by the Recovery
  An additional 723SBAExpress loans that were not funded by the Recovery Act were approved over this time. 

                                                                                                                                                Act. 

3
  This includes 7(a)loans made under the Preferred Lenders Program and              loans. 
SBA-approved
                                                                                                                           8

Small and Medium Lenders Had Driven the Recovery in SBA Lending 

Excluding SBAExpress loans,SBA’s small and medium lenders had been driving

recovery.  While these lenders did notcut back their lending as 4severely as the

program’s largest lenders in the year prior to the Recovery Act, they responded

immediately to SBA’s implementation of reduced fees and increased      loan 

                                  5).
guaranties (Figure In July 2009,small and medium lenders approved

                                                               5
19percent more loans than a year ago compared to the largest lenders that are 

27 percent below prior year                      levels. 

                                    5.
                        Figure Year over Year 7(a)Approval Growth Rates 

                         7(a)Growth Rates by Loans Approved (SBAExpress

                                                           Removed) 

       30% 

       20% 

       10% 


      -10%

        0%


      -20%

      -30%

      -40%

      -50%

      -70%-60%


           n- b- -0 r- -0 n-
            0
             8
                   0
                    8    8
                        ar
                              0
                               8
                                   ay
                                        8   08
                                              l-0 g-
                                                  8
                                                      0
                                                       8
                                                           p- -0 v- c- n- b-M -0 r-M -0
n-
                                                           0
                                                            8    8
                                                                ct
                                                                       0
                                                                        8
                                                                            0
                                                                             8   9
                                                                                 0   0
                                                                                      9    9
                                                                                          ar
                                                                                                 9
                                                                                                0

                                                                                                     ay
                                                                                                          9
                                                                                                                l-0 

                                                                                                              09
 9


         Ja Fe               Ap         Ju   Ju   Au Se O            No De Ja Fe
              Ap         Ju
 Ju

                    M             M 


                                             Large Lenders           Small and Medium Lenders

Source:SBA Loan Data 

As a result, 7(a)lending had become more widely dispersed under the Recovery

Act. The top 20 lenders accounted for 38 percent of all 7(a)loans (excluding

SBAExpress)approved during the audit period,compared to 46 percent in 2008 

and 53percent in 2007. The largest 7(a)lenders contributed significantly to 

recovery volume,however they were not lending as much as they did a year
We found that three of the most severe cuts in loan activity have been attributable 

                                                                                                                       ago.

to SBA lenders that experienced significant financial problems in the past                                       year. 

4

     Large lenders are defined as the 20 largest lenders by loan volume during calendar year 2008. 

5

     Small and medium lenders are defined as all other lenders. 

                                                                                                                                9

During the audit period, 256 new and returning lenders participated in SBA 

lending programs. These lenders,which were either new to SBA lending or had 

not made a loan since January 2007,were mostly smaller lenders making one or 

two loans. Their activity underscores the role being played by smaller SBA 

lenders in the recovery period. While these lenders account for just 4 percent of 

total dollar volume under the Recovery Act,the fact that lenders are being drawn 

to the 7(a)program is a positive development. 

Increased Trend in     SBA-Approved   Loans in the 7(a)and 504 Loan Programs

May Impact Agency Staffing Requirements and Program Risk 

Increase in    SBA-approved7(a)Loans 

During the audit period, the number of 7(a)loans approved by SBA had more than

doubled,increasing demands on staff at SBA loan centers. In July,SBA approved

705 loans compared to only 333in March (Figure In fact,the percentage of

SBA-approved    7(a)loans continued its upward trend,and in July represented

                                                                                        6).
28.3 percent of all approved 7(a)loans (excludingSBAExpress). 

                 Figure                  6.SBA-Approved
                                            Loan Activity in 7(a) 

                                 7(a)SBA Approved Loans by Month 

    800 

    700 

    600 

    500 

    400 

    300 

    200 

    100 

      0

     n- M -0M -0
    Ja
         07    7
              ar   ay
                        7
                             l-0
                            Ju
                                 7
                                     ep
                                     S
                                         -0 -0 n- -0 -0
                                          7

                                              N
                                                 7
                                                ov Ja
                                                        08

                                                         M
                                                              8
                                                             ar
                                                                  M
                                                                      ay
                                                                           8
                                                                                l-0
                                                                               Ju
                                                                                    8

                                                                                        ep
                                                                                        S
                                                                                            -0 -0 n- -0 -0
                                                                                              8


                                                                                                  N
                                                                                                    8   09
 9
                                                                                                    ov Ja
 ar ay
                                                                                                          M
 M 

                                                                                                                   9
                                                                                                                        l-0 

                                                                                                                         9


                                                                                                                       Ju




Source:SBA Loan Data 

SBA faces a risk that the increased demands on loan center staff could impact the 

quality of Agency loan reviews if adequate staff and training are not provided.

The Agency must ensure that the quality of review is not sacrificed to meet the 

                                                                                    10

increased demands on SBA loan center resources. Some of our concern stems 

from the preliminary results from our current review of a sample of 7(a)loans 

disbursed under the Recovery Act,to determine whether they have been originated

and closed in accordance with SBA’s policies and procedures. To date,we have 

found evidence of weaknesses in the Agency’s review and approval process for 

7(a)loans. In the sample,we found that the Agency approved multiple loans

where lenders did not use the correct cash flow methodology. We also found

instances where SBA did not adhere to its own standards for allowable goodwill in 

change of ownership transactions. These deficiencies raise a concern that the shift

towards agency approval of 7(a)loans could lead to increased losses and improper

payments. While the Agency has developed a staffing plan and begun adding staff

under the Recovery Act,it must ensure that staff are properly trained and 

supervised to mitigate the risk of increased program losses. 

CDCs Shift to SBA-approved 504 Loans 

The shift towards SBA approval is also significant in the 504 program. In the 

recovery period through July,Certified Development Companies (CDCs)have 

                                                            a u t h o r i t
relied on SBA to process about 94 percent of total loans,up from 80 percent

2 yearsago.
participants in the Premier Certified Lenders Program(PCLP)--have
              The program’s most active lenders with delegated              y - 

                                                                      substantially

increased the number of loans sent to SBA for approval. In 2007,the 10 most 

active PCLP CDCs approved 77 percent of their loans using delegated authority,

                                                                      Act.
compared to just 30 percent by the same CDCs under the Recovery The two 

largest PCLP CDCs that had approved 99 percent of their 2007 loans using

                                                                          Act.
delegated authority, have only approved 28 percent under the Recovery The 

shift towards Agency approval of 504 loans places SBA in a position to assume a 

greater share of program risk. 

Historically, PCLP CDCs had the benefit of much faster processing times by using

their delegated authority. Through increased efficiencies at SBA’s loan centers 

following centralization, much of this benefit has been eliminated. According to

SBA,it currently takes the Agency 2 days longer on average to process a loan 

through its Accredited Lenders Program than for a CDC using its delegated

authority. As a result of the center’s processing efficiency improvements,PCLP 

CDCs have little incentive to approve their own 504loans. 

The impact of this shift is that the Agency loses the PCLP CDCs’contribution to 

loan losses. PCLP participants must maintain a loan loss reserve fund to

reimburse SBA for 10 percent of any Agency loss in the event of default. For 

each PCLP debenture that it issues,the CDC must maintain a reserve equal to 

1 percent of the original principal amount. There is no reserve or reimbursement

requirement when the Agency approves a loan. PCLP CDCs thus free up

                                                                                11

additional capital by sending their 504 loans to SBA for approval,which may be 

an increasingly important incentive under current economic conditions. As a

result,the Agency may face increased exposure to losses upon loan default. 

Efficiency gains in Agency processing times,combined with weaker economic

conditions,may have reduced the incentive for CDCs to use their delegated

authority to approveloans.  If this change in CDC behavior continues,it may

increase SBA’s risk of loss,as the Agency could lose the CDCs’   10-percent

                    losses.
participation in loan        SBA should monitor this trend to determine its 

potential impact on program costs for CDCs. 

AGENCY COMMENTS 

On November 19,2009,we discussed the draft report with the Associate 

Administrator for Capital Access and on November 20,he provided written

comments.    The written comments are summarized below,and the full text of the 

comments is provided in Appendix II to this report. 

SBA management generally agreed with the findings,but provided some 

clarifications to the report statements relating to SBAExpress lending activity and 

its impact on SBA staffing requirements and program risk. Management

commented that the rebound in SBAExpress activity has not been as considerable 

as in the 7(a)program overall, which is potentially due to the unchanged guaranty

level during challenging economic conditions. Management also commented that 

in anticipation of the increased loan transactions under the Recovery Act,the 

Agency took a disciplined approach to developing staffing estimates to forecast 

staff capacity needs,and recruited staff with previous lending experience and 

        New hires also underwent a 2-week
expertise who would be able to process loans faster than less experienced new

hires.                                        training program. Additionally,

management noted that they will continue to actively monitor 504 program

performance in light of increases inSBA-approved       loans.

                                                                                  12

              I.
APPENDIX SCOPE AND METHODOLOGY 

Our audit objectives were to:(1)provide transparency on SBA loan activity and 

lender participation under the Recovery Act; and (2)determine the impact of 

program changes on the levels and characteristics of SBA lending. 

To satisfy the audit objectives,we collected data from SBA’s Loan Accounting

System (LAS)for all 7(a)and 504 loans issued from January 1,2007 through

February 16,2009. We did this to establish a baseline for loan activity prior to the

          Act.
Recovery Next,we collected LAS data from February 17,2009 (theday the

                              31.
Recovery Act passed)to July We did not adjust SBA’s approval data for 

cancelledloans.
otherwise. 
      Also,all years in this report refer to calendar years, unless noted

We reviewed the six weeks of data for the America’s Recovery Capital (ARC)

loan program that was available at the time of our review. In order to provide a 

more thorough review of activity in the ARC loan program,we plan to report

separately as more data becomes available. 

Although we initially planned to review the Recovery Act’s impact on secondary

market liquidity,SBA had not yet implemented its program establishing secondary

market lending authority at the time of our review. As such,we chose to focus on 

primary market activity and lender participation. 

To verify the reliability of the collected data, we discussed data system controls 

with SBA officials and conducted our own data testing. To validate collected

data,the analysts performed;error testing,parameter testing,reasonableness

testing,analysis of blank fields,and completeness testing of key data fields. We 

utilized Computer-Assisted Audit Techniques (CAATs)and Microsoft Office 

applications to ensure that performance related data is accurate. 

We used IDEA data analysis software to run queries on data extracted from    LAS. 

We ran tests to examine loan activity levels and characteristics. Finally, we 

exported the results of the IDEA queries into Excel workbooks to continue our 

analysis and to construct tables and charts for presentation. 

We conducted our review from June 2009 through September 2009 in accordance 

with Government Auditing Standards prescribed by the Comptroller of the United 

States and included such tests as were considered necessary to provide a 

reasonable assurance of detecting abuse or illegal acts.

14

15

